         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Special Report

Management Challenges at the
Department of Energy




DOE/IG-0748                       December 2006
                             Department of Energy
                                 Washington,   DC 20585

                                  December 13, 2006



MEMORANLIUM FOR

FROM:
                          Inspector General

SUBJECT:                  INFORMATION: Special Report on "Management Challenges
                          at the Department of Energy''

BACKGROUND

On an annual basis, the Office of Inspector General identifies what it considers to be the
 no st signilicant management challenges Facing the Departllleiit of Energy. Now required
as part of the Reports Consolidation Act of 2000, this effort includes an assessment of the
agency's progress in addressing previously identified challenges and an evaluation of
emerging issues facing the Department. Our conclusions are based on the results of
current Office of Inspector General audits, inspections and investigations.

l~'hroug11this evaluation, the Office of Inspector General highlights high risk
Departmental activities and those activities with demonstrated performance problems.
Consistent with our mission, the overall goal is to focus attention on significant issues
with the objective of enhancing the effectiveness of agency programs and operations.
?'lie nlanagelncnl challenge p~uccssis alsu used by Lliz Gffice uf Inspcctos Genzsal to a c i
internal priorities for evaluating Department programs and operations.

RESULT

The following are the most significant challenges facing the Department of Energy for
Fiscal Year 2007:

       Safeguards and Security
   a   Environn~entalCleanup
       Stockpile Stewardship
       Contract Management
       Project Management
       Cyber Security
       Energy Supply

Additionally, the report includes a "watch list" of three additional emerging issues that
warrant continued attention by Department managers. These include Financial
Management and Reporting, Worker and Community Safety and Human Capital
Management.
                                                2

In issuing its annual management challenges report, we recognize that the Department’s
mission is complex, diverse, and is subject to many programmatic risks, including factors
outside of the Department’s immediate control. The challenges are, for the most part, not
amenable to immediate resolution and must, therefore, be addressed through a
concentrated, persistent effort over time.

The Department has taken a number of positive actions to strengthen its management
processes. For example, the Department is actively addressing the President’s
Management Agenda to make the Federal Government more efficient, results-oriented,
and accountable to the public. In fact, through Fiscal Year 2006, the Department
completed official assessments for 94 percent of its available programs, putting it well-
ahead of the Office of Management and Budget’s implementation schedule under the
Program Assessment Rating Tool initiative.

Also, in 2006, the Department reorganized and realigned its resources to strengthen and
improve the health, safety, and security of Department workers, facilities, and the public.
Further, through a combination of new policies and procedures and increased
management emphasis, the Department initiated a program to enhance cyber security
throughout the complex. In addition, the Department is working on a multi-year effort to
ensure that all of its Federal project directors are certified as part of the Project Manager
Career Development Program. The objective of the Program is to enhance the
professionalism in the management of the Department’s sizable project portfolio.

In its Fiscal Year 2006 Performance and Accountability Report, the Department
identified a set of issues impacting its ability to fulfill critical missions. This self-
generated list closely paralleled the management challenges reported here.

We look forward to working closely with Department officials to evaluate agency
performance in an effort to improve programs and operations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief Financial Officer
    Chief of Staff
%
  @
; :*$


    a.GITEs,
               3.8.      Table of Contents

 Introduction ................................................................................................... 1

 Management Challenges ................................................................................... 3

 Watch List ................................................................................................... 13

 Appendices ................................................................................................... 16

         I . Challenge Areas and Significant Issues Reported by Various Groups .....................16

        2 . Relevant Reports Issued in Fiscal Year 2006 ................................................. 17
                       Introduction

W h i l e its origins can be traced to the Manhattan Project and the race to develop rht. atomic
bomb during World War 11, today the Department of Energy is a multi-faceted agency that
encompasses a broad range of national security, scientific, and environmental activities. Since
the passage of the Depurtmerzt oj Energy Organization Acl in 1977, the Department has shifted
its emphasis and priorities over time as the energy and security needs of the Nation have
changed. In recent years, the Department has refocused its efforts in areas such as environmental
cleanup, nuclear nonproliferation and weapons stewardship, and energy efficiency and
conservation. In order to accomplish its mission, the Department receives an annual
appropriation of approximately $24 billion, enlploys approximately 1 15,000 Federal and
contractor personnel and manages assets valued at more than $126 billion, including a complex
of national laboratories.

On an annual basis, the Office of Inspector General (OIG) identifies what it considers to be the
most significant management challenges facing the Department. Now codified as part of the
Reporls Coruolidution Act of 2000, this effort assesses the agency's progress in addressing
previously identified challenges and considers emerging issues facing the Department. The
management challenges outlined in this report constitute a major factor in setting internal 01G
priorities as it evaluates Department of Energy programs and operations.

Representing risks inherent to the Department's complex operations as well as those related to
management processes, these challenges are, for the most part, not amenable to immediate
resolution and must, thererore, be addrcssed through a concentrated, persistent effort over time.
This year, the Office of Inspector General identified the following seven management
challenges:

       Safeguards and Security
       Environmental Cleanup
       Stockpile Stewardship
       Contract Management
       Project Management
       Cyber Security
       Energy Supply

In addition to identifying these management challenges, we have also developed a "watch list?"
which consists of significant issues that do not meet the threshold of being classified as
management challenges, yet warrant continued attention by Depart~nentmanagement. This year,
the watch list consists of the following operational and programmatic functions: Financial
Management and Reporting, Worker and Community Safety, and Human Capital Management.



Page I                                                                                Introduction
By aggressively addressing these challenges, the Department can enhance program efficiency
and effectiveness; reduce or eliminate operational deficiencies; decrease fraud, waste, and abuse;
and achieve substantial monetary savings.




Page 2                                                                              Introduction
     @ @o
            qh




         %WES~
                 B
                         Management Challenges

Safeguards and Security

While the Department has shifted its focus over time as the needs of the Nation have changed,
special emphasis on safeguards and security has remained a vital aspect of the Department's
mission. The Department plays a fundamental role in the Nation's security by ensuring the
safety of the country's nuclear weapons, advancing nuclear non-proliferation, and providing safe
and efficient nuclear power plants for the United States Navy. In order to faithfully execute and
preserve this sensitive mission, the Department maintains a substantial sccurity regime, which
includes over 4,000 protective force personnel and various physical safeguards for classified
material and other sensitive property. In recent years, this management challenge was labeled
"National Security." While the current management challenge, Safeguards and Security,
encompasses Departmental programs and operations pertaining to national security, it also serves
to include a broader range of issues such as internal security controls and protective force
property and work environment concerns.

Over the past year, the Department made strides toward improving vital safeguards that secure
the agency's numerous employees and facilities. The Department maintains stewardship of vital
national security capabilities, ranging from nuclear weapons to leading research and
development projects. Department activities are focused on protecting nuclear weapons secrets,
but also emphasize a high priority on protecting other sensitive scientific endeavors. During FY
2006, the Department continued its work on an array of new security initiatives, which are
intended to improve security across the Department's network of laboratories and defense
facilities. Specifically, a number of these actions focused on implementing the necessary
inlprovements to meet the current Design Basis Threat (DBT) policy.

While we view this progress as an important step, during FY 2006, we conducted several
reviews that highlighted the need for continued improvement in the area of Safeguards and
Security. For example, an October 2005 audit of the Department's implementation of the DBT,
which reflects the niost credible threats posed to Departmental assets and operations, revealed
that the National Nuclear Security Administration (NNSA) experienced delays in implementing
changes, including new technologies, to tneet the safeguards and security performance
requirements contained in the 2003 DBT. Our review included recomrnendations designed to
improve the planning, budgeting, and evaluation of safeguards and security upgrades to meet
future DBT requirements (The Arutional Nuclear Seczwify Admini,s/ru~ion'sImplenzentntion of the
2003 De.~ignBasis Threcrl. 1G-0705, October 2005).

In addition, a recent audit of the Department's management of non-nuclear high explosives
found that two NNSA defense laboratories were not maintaining control, accountability, and
safety over a wide array of explosives. Incorporating a wide variety of explosive devices and
~naterialssuch as rocket motors, propellants, bulk explosives, shaped charges, artillery shells,



Page 3                                                                 Management Challenges
ammunition, and detonators, explosives handling and processing is an integral part of the
Department's activities. Due to the inherently dangerous nature of high explosives, Department
regulations require that strict control and accountability be maintained over all components. Our
review found that a lack of control and accountability occurred, in large part, because the
laboratories failed to design and implement effective local high explosive management
strategies. We made several recommendations designed to aid the Department in improving its
high explosives program at all of its sites (The Deparlmenl :Y Mcmagenzen1 oj'Non-Nuc~letrrHigh
Explosives, 1G-0730, June 2006).

Further, two separate reviews focusing on security clearance termination and security badge
retrieval at the Sandia National Laboratory-New Mexico and the Lawrence Livermore National
Laboratory concluded that both laboratories' internal control structures wcre not adequate to
ensure that security badges were retrieved at the time of an employee's departure or that security
clearances of departing employees were tenninated in accordance with applicable policies and
procedures. Given the similarity of our findings in these reviews with a previous review at the
Los Alamos National Laboratory, we concluded that senior Department management should
consider taking broader action to ensure that all Department sites are adequately addressing
issues pertaining to badge retrieval and security clearance termination (Securitj,Cleurunce
Terminutions ur~ciBadge Retrieval ut the Lulvrence Livermore Nulionul Lahorutoiy, 1G-07 16,
January 2006; Bcrclge Retrievczl and Seczlrioj Cleururzce Ternzinution ut Sandiu Nutionul
Luhomtory-Ne~lMe.xico, 1G-0724, April 2006).

Clearly, the Department's many programs and facilities require the existence of a safe and secure
environment. The issues disclosed in our work during FY 2006 suggest the need for continued
focus and improvement by Department management in this critical challenge area.

Environmental Cleanup

As a result of the legacy of the Manhattan Project and subsequent activities, the Department's
environmental remediation activities are among its most important programs. With the end of
the Cold War, this mission became of even greater importance, as efforts to dispose of large
volumes of solid and liquid radioactive waste became more essential as a result of more than half
a century of nuclear defense work and energy research. The Department is responsible for
cleaning contaminated sites and disposing of radioactive, hazardous, and mixed waste resulting
from nuclear weapons production, nuclear powered naval vessels, and comnlercial nuclear
energy production. The projected cost of these reniediation efforts is over $180 billion, which
represents the third largest liability on the overall financial statement ofthe United States
Government.

Duc to the risks and hazards associated with this difficult and costly task, we conducted a series
of reviews over the past year to assess the progress of the Department's environmental cleanup
activities. For example, under the 1989 Tri-Party Agreement between the Department, the
Washington State Department of Ecology, and the Environmental Protection Agency, firm
milestones were established for completing the retrieval of waste from underground tanks at the
Hanford Site. An October 2005 audit disclosed that, in terms of both schedule and cost, the
Department will not meet its Agreement milestone for the retrieval of waste from single-shell



Page 4                                                                Management Challenges
tanks located at the Hanford Site's C-Farm. In our judgment, the Deparlment was overly
optimistic about its ability to retrieve tank waste and it had not based its approach on sound
retrieval experience and proven retrieval technologies. We concluded that our findings have
broader implications for the entire tank waste cleanup effort and as a result of tank waste
retrieval delays and cost overruns, the Department's ability to meet its Agreement milestone of
removing waste from all single-shell tanks by 201 8 is in jeopardy (Accelemted Tntrk Wustc
Retrieval Aclivities ut the Hunfo~dSite, IG-0706, October 2005).

The Department is also responsible for managing the agency's spent nuclear fuel inventory and
preparing it for final disposition in a geologic repository. As part of an effort to identify the best
method to prepare spent nuclear fuel for disposition at the Savannah River Site, the Dcpartment
selected a process known as "melt and dilute" as the preferred alternative in a July 2000 Record
of Decision, establishing a goal of having the technology in place by 2008. The Record of
Decision cotntnitted the Department to explore direct disposal as an alternative strategy and to
maintain the current conventional processing facility, known as H-Canyon, to address any
degrading of spent fuel stored at the Savannah River Site until a new disposal program was
implemented. A recent review was conducted to determine the status of the spent nuclear fuel
                                                                             program at the Savannah River Site. We
                                                                             found that there have been delays in
                                                                             developing and implementing a spent
                                                                             nuclear fuel program at the Savannah River
                                                                             Site and as a result, H-Canyon will have to
                                                                             be maintained in an idle, but operational
                                                                             mode, for at least two years. Given the
                                                                             commitment the Department made in the
                                                                             Record of Decision and the absence of a
                                                                             fully developed disposition strategy, the
                                                                             two-year gap is projected to cost taxpayers
                                                                             approximately $300 million. To address this
                                                                             situation, we made several recommendations
                                                                             designed to ensure that the Department
    Ili,qh-lc,vc,l nzrr.s/cJ
                           cnr~islr,.; (11 /Ire, S n ~ ~ r r r r ~River
                                                                  l n h Sitc
                                                                             establishes a complex-wide strategy and
                                                                             expedites the implementation of a
technology to prepare spent nuclear fuel at the Savannah River Site for disposition (Mnnagetneiit
of Spent Nuclear Fuel ut the Suvrrnnnh River Site, IG-0727, May 2006).

In addition to environmental cleanup efforts throughout the country, the Department is
responsible for constructing a geological rcpository at Yucca Mountain, Nevada. In July 2002,
after more than two decades of scientific study, President George W. Bush signed the Yzlccu
Mountuin Development Act, designating Yucca Mountain as the site of the Nation's first
geologic rcpository for radioactive waste and spent nuclear fuel. During FY 2006, the
Department made progress toward developing a license application for submittal to the IVuclear
Regulatory Commission (NRC), which is rcquired before waste shipments to the repository can
begin. While progress has been made in the construction and licensing process at Yucca
Mountain, the Department has continued to experience quality control deficiencies, which could
affect the ongoing design, analysis, and eventual licensing of the repository. For example, recent



Page 5                                                                              Management Challenges
OIG reviews in this area have revealed that quality assurance issues were not promptly
                                                                                       identified, investigated, or resolved by the
                                                                                       Department. Moreover, we found that a
                                                                                       Corrective Action Program, implemented
                                                                                       by the Department as required by the
                                                                                       NRC, was not effectively managing and
                                                                                       resolving conditions adverse to quality at
                                                                                       the Yucca Mountain Project. As outlined
                                                                                       in several OIG reviews over the past year,
                                                                                       the Department must continue to improve
                                                                                       quality assurance measures to assure the
                                                                                       scientific reliability as well as the overall
                                                                                       safety of the proposed repository (Quality
                                                                                       Assurance Weuknesses in the Review of
                                                                                       Yuccu Mountain Electronic Mail for
                                                                                       Relevalzcy to the Licensing Process, IG-
 /ll/)i~rc~
          ~riining~~rtrc.hir~c,
                            c.rc.clvn1c.s (~lcor,c~.s/i)r
                                                       1c.srirlgnr Yidccn 1~lou1zroirr
                                                                                       0708, November 2005; The Office of
Civiliull Rudiouctive Wasfe M~rnugement's Corrective Acrion Program, 16-0736, August 2006).

These reviews highlight the monumental task that the Department faces to ensure that
contaminated materials and radioactive waste are disposed of in a safe, timely, and cost effective
manner. Overseeing the largest cleanup effort in the world, which encompasses over 2 million
acres at 1 14 sites, the Department made significant progress at several contaminated sites over
the past year. However, the Department continues to experience delays in accelerated cleanup
programs at various sites and has been challenged by quality assurance concerns at the Yucca
Mountain Project. Therefore, in our judgment, Environmental Cleanup remains a management
challenge that warrants significant attention on the part of Department management.

Stockpile Stewardship

The Department is responsible for the maintenance, certification, and reliability of the Nation's
nuclear weapons stockpile. In order to ensure that our nuclear weapons continue to serve their
essential deterrence role, the Department maintains stockpile surveillance and engineering
capability, refurbishes selected nuclear systems, and sustains the ability to restore the
manufacturing infrastructure for the production of replacement weapons. As has been the case in
recent years, given the importance and complexity of the Department's role in ensuring the
vitality of the U.S. nuclear stockpile, Stockpile Stewardship has been classified as a significant
management challenge.

The conclusion of the Cold War was followed by a moratorium on nuclear testing as well as an
end to the development and production of new nuclear warheads. As a result, the Department is
responsible for certifying the safety, security, and reliability of 100 percent of the existing U.S.
nuclear stockpile. In FY 2006, the Department announced the details of a comprehensive plan to
employ a smaller, safer, and more secure nuclear weapons stockpile in order to enhance the
Nation's capability to respond to changing security challenges. This plan will attempt to
facilitate an improved research and development infrastructure, modernize production facilities,



Page 6                                                                                        Management Challenges
and consolidate nuclear materials. Although in its initial stages, the plan is a positive step toward
maintaining the Departnlent's ability to certify the safety, security, and reliability of the Nation's
nuclear stockpile.

Over the past year, the Office of Inspector General conducted a series of reviews to examine the
Department's activities and management strategies in this crucial arena. For example, in
response to the aging of the Nation's nuclear weapons stockpile, NNSA, working with the
Department of Defense, developed strategies, known as Life Extension Programs, to refurbish
the weapons stockpile to extend its deployment life. As part of this process, the W76 weapon
system will undergo refurbishment at a cost of $91 6 million through the first production unit date
to address aging concerns and to provide long-term certification of the system. An 01G audit
concluded that NNSA was at risk of not achieving thc first production unit for the W76
refurbishment within the scope, schedule, and cost parameters as detailed in the project plan.
Failure to complete the W76 refurbishment first production unit within the established schedule
and scope could have a direct effect on full-scale production decisions, impact NNSA's ability to
manage project costs, and affect overall national security goals of the refurbishment effort. As a
result, wc recommended that NNSA strengthen project management planning and ensure future
Life Extension Programs implement the project management principles of timely comprehensive
project planning (W76 Life Extension Project, IG-0729, May 2006).

Additionally, the Department's Sandia National Laboratory is in the process of refurbishing the
Spin Rocket Motor, which is a prime component of the B61 nuclear weapon system. Upon
receiving allegations that raised serious questions concerning the Department's decision to
proceed with the B6l Spin Rocket Motor project, an OIG audit was initiated to evaluate concerns
regarding the performance of the motor. Based on reported test anomalies, we concluded that
there was a reasonable basis to be concerned about the aging and future performance of the B61
Spin Rocket Motor. However, we noted that the decision to replace the spin rocket motor was
not made in accordance with established protocol. We made several recommendations to ensure
that future refurbishmcnt projects are managed in accordance with Department procedures,
specifically to ensure that such pro-jects are justified and supported based on analyses of
refurbishment options and validated cost data (The N~ttionalNuclear Seczrrity Administration 's
B61 Spin Rocket Motor Project, IG-0740, September 2006).

Over the past year, the Department has taken several steps to further enhance the safety and
reliability of the country's weapons stockpile. As demonstrated in recent reviews outlined above
as well as those conducted in recent years, the Department can continue to improve in this vital
challenge area by enhancing Life Extension Programs and improving upon existing project
management issues related to the cost and scheduling of various stockpile stewardship projects.

Contract Management

The Department places significant reliance on contractors, employing over 100,000 contractor
employees. Contracts are awarded to industrial companies, academic institutions, and non-profit
organizations that operate a broad range of Department facilities, including its most sensitive
national security facilities. In fact, a high proportion of the Department's operations are carried
out through contracts that consume about three-fourths of its overall budget. As a result,



Page 7                                                                  Management Challenges
effective contract oversight is an essential component of the Department's management of its
many programs.

During FY 2006, several Office of Inspector General reviews highlighted the need for improved
management oversight in the administration of Department contracts. For example, in FY 2005,
the Department and its contractors spent over $1.2 billion on information technology (IT)
infrastructure and support, including activities such as server and network technical services,
database management and administration, and desktop support. Under the Clinger-Cohen Act,
the Department is required to design and implement a process for maximizing the value obtained
from 1T support service contracts. In an August 2001 report, we concluded that the Department
did not have a con~prehensiveframework for acquiring such services. Given the continuing
potential for significant savings, we initiated a recent audit to determine whether the Department
had designed and implemented an effective process for managing and controlling contractor IT
support services costs. Our audit revealed that while the Department had initiated action to
consolidate requirements for services provided to Federal employees, it continued to face a
number of challenges related to contractor procured IT support services. We concluded that
there is a potential for significant cost savings at the Department's numerous contractor-managed
sites through improved management and control of IT support services (Information Technology
Supporl Services a1 lhe Depurtment c!fEnet-~y     :s Operaling Contractors, IG-0725, April 2006).

In addition. a December 2005 review focusing on the Department's Radiological Calibration
Laboratory, which is responsible for functions related to dosimetry and radiological instrument
calibrations at the Hanford Site, found that the curtailment of operations at the Laboratory, as
currently planned, would leave the Office of Environmental Management without site capability
to perform internal and external dosimetry assessments and radiological calibrations. The
Laboratory is scheduled for demolition by the end of FY 2009 as part of the Office of
Environmental Management's cleanup plan. We determined that since a planned replacement
facility would not provide the capabilities essential to meet the Office of Environmental
Management's dosimetry and calibration needs, the Department risked increased costs from
duplication of resources and the loss of mission critical dosimetry and calibration services. As a
result, we recommended that the Department integrate programmatic resources on the project
and perform a cost-benefit analysis of the available options (Demolition and Replacement of
HanfOrd '.Y Radiological C'alibration Laboratory, IC -07 11, December 2005).

After noting in a previous review that protective force personnel at the Oak Ridge Reservation
were working excessive amounts of overtime at a significant cost to the Department, an
inspection was initiated to determine whether the protective force contracts for the Oak Ridge
Reservation had been modified to include incentives to reduce overtime. Our review disclosed
that the Oak Ridge protective force contracts did not include such incentives. Instead, we found
that the contract structure had the opposite effect on the overtime structure. We observed that
the current protective force contracts at the Oak Ridge Reservation expired in December 2005
and that the Department planned to award new protective force contracts using the same
structure as the existing contracts. We recommended that the current structure be further
evaluated in order to reduce overtime in a new protective force contract (Protective Force
Contracts at the Oak Ridge Reservation, IG-07 19, February 2006).




Page 8                                                               Management Challenges
To its credit, in response to several of our reviews, the Department has developed strategies and
programs to address contract management concerns. However, given the number o r contracts
awarded and managed by the Department, combined with the issues raised in our reviews, the
area of Contract Management remains a significant nlanagement challenge for the Department.

Project Management

The Department undertakes numerous unique and colnplex multi-million dollar projects in order
to support its various missions. In recent years, the Department, in responding to identified
weaknesses in the area of Pro-ject Management, improved the discipline and structure for
monitoring project performance. In July 2006, DOE Order 413.3A was issued to provide the
Department with project management direction for the acquisition of capital assets with the goal
of delivering projects on schedule, within budget, and capable of meeting mission performance,
security, and environmental, safety, and hcalth standards. By etnploying effective policies and
controls to ensure that ongoing projects are re-evaluated frequently, the Department has focused
on improving project nlanagement throughout the complex.

Recent Office of Inspector General reviews have identified additional itnprovetnents that are
necessary to ensure that the Department's efforts to improve pro-ject management principles are
effective and accon~plishingtheir goals. For example, a December 2005 audit indicated that the
cost o r the Mixed Oxide Fuel Fabrication (MOX) Facility at the Savannah River Site will
significantly exceed the amounts reported to Congress in 2002. During the course of our review,
we found that the Department's current estimate for the design and construction of the MOX
Facility was approximately $3.5 billion, which was $2.5 billion more than previously estimated.
Although Russian liability issues and additions to project scope had a significant impact on the
cost and schedule of the project, we found that weaknesses in contract tllanagement also
contributed to the cost growth. As such, our report included specific recomll~endationsto
facilitate the successful completion of the project (Status of the Mixed Oxide Fuel Fabrication
Facility, 16-07 1 3, December 2005).

For example, in May 200 1, we reported that the Department's Miamisburg Closure Project
would not be completed under current cost and schedule requirements. A recent follow-up audit
concluded that the Department is unlikely to achieve revised closure goals on the Miamisburg
Closure Project. We found that the Department had not adequately planned for work scope
uncertainties, failing to sufficiently quantify the risk or reserve funds to cover uncertainties such
as employee pension costs and soil volumes that require remediation. We concluded that these
problems provided valuable inrormation which has application to the success of other
Department closure projects. As a result, we made several recommendations designed to mitigate
the potential impact of pension costs and various other uncertainties on the cost and schedule
success of closure projects as well as specific recommendations related to the management of the
Miamisburg Closure Project (Follow-up Audit Report on the Department oj'Energy1s
Perfornzancc of the Miamisburg Closlrre Project, IG-072 1 , March 2006).

While the Depar~menthas continued to make progress toward improving project management
principles, our reviews over the past year continued to highlight weaknesses in this area. In
addition, concerns related to project management within the Department were enlphasized in a



Page 9                                                                 Management Challenges
recent review by the U.S. Army Corps of Engineers pertaining to Ihe estimated project cost of
the Waste Treatment and Immobilization Plant at the Hanford Site. Given the complexity and
importance of the Department's numerous multi-million dollar projects and the results of recent
Office of Inspector General reports, Project Management remains a significant management
challenge.

Cyber Security

Thc Department spends approximately $2.5 billion a year on information technology. As a result
of the importance of IT on its numerous projects, laboratories, and assets, along with the vast
array of data that is produced, cyber security has become a crucial aspect of the Department's
overall security posture. In 2005, the Department established a Cyber Security Improvement
initiative, the goal of which was to identify improvements for cyber security controls within the
Department. Over the past few years, the area of "Information Technology," which
encompassed a broad range of IT contracts, programs, and security, had been classified as a
management challenge. Recently, however, threats to the Government's information systems
have risen to become a national security risk. As a result of these risks and in light of recent
efforts to intrude into the Department's systems, we have categorized Cyber Sccurity as a
significant management challenge. While the area of Cyber Security focuses primarily on the
security of the Department's information systems, other aspects of the Department's IT programs
remain of vital importance. Areas of concern pertaining to these types of contracts and projects
have been incorporated into existing management challenge areas, such as Contract Management
and Project Management.

During FY 2006, the OIG conducted various reviews in this area that highlighted the need for
improvements in the Department's overall cyber security program. As required by the Federal
Information Security Matzagement Act (FISMA), an OIG audit was conducted to determine
whether the Department's unclassified cyber security program adequalely protects data and
information systems. During the last year, the Department launched a cyber security
revitalization program and issued enhanced guidance designed to strengthen protective efforts.
While these were positive steps, we continued to observe deficiencies that exposed the
Department's critical systems to an increased risk of compromise. Specifically, we found that in
spite of recent in~provementsin reporting methodologies and standards, the Department had not
yet completed a complex-wide inventory of its information systems; many system certifications
and accreditations had not been performed or were inadequate; contingency planning, vital to
ensuring that systems could continue or resume operations in the event of an emergency or
disaster, had not been completed for certain critical systems; and weaknesses existed in physical,
logical access, and change controls designed to protect con~puterresources. We found that
continuing cyber security weakncsses occurred, at least in part, because program and field
elements did not always implement or properly execute existing Departmental and Federal cyber
security requirements (The Deparlmenl 's Unclas.ri@edC'yber Seczdrity Progrcrm-2006, IG-0738,
September 2006).

Further, during a June 2006 congressional hearing, Department officials publicly disclosed that
an unclassified computer system was compromised at the NNSA Service Center in Albuqucrquc,
New Mcxico. As a result, a file containing the names and social security numbers of 1,502



Page 10                                                              Management Challenges
NNSA employees was comproniised. An OIG special inquiry concluded that the Department's
handling of this matter was largely dysf~inctionaland that the operational and procedural
breakdowns were caused by questionable managerial judgments; significant confusion by key
decision makers as to lines of authority, responsibility, and accountability; poor internal
communications; and insufficient follow-up on critically important issues and decisions.

To help address continuing weaknesses, the Department recently launched a revitalization effort
designed to improve the management of its cyber security program to ensure that systems and
data are secure. In addition, NNSA initiated a reprogramming of FY 2006 funds to combat
pressing cyber security issues. Due to the evolving nature of cyber security threats, immediatc as
well as long-term action is necessary to ensure the protection of the Department's information
systems.



Over the last scveral years, energy consumption in the United States and throughout the rest of
the world has grown at an alarming rate. As a result of this growth as well as other world events,
the United States' energy supply has come under stress and obstacles have arisen that create
challenges for achieving a stable and reliable energy supply system, which is critical for
consumers, the U.S. economy, and our national security. Although not directly responsible for
energy costs or supply, the Departmcnt is in a unique position to help ensure that the Nation's
energy needs are met through sound energy policy, research and development, and overall
leadership. Providing leadership to ensure that the Nation's energy supply is reliable, affordable,
and environmentally friendly represents a significant management challenge for the Department.

On August 8, 2005, the Energy Policy Act oJ200.5 was signed into law at the Department's
Sandia National Laboratory in Albuquerque, New Mexico. Intended to establish a
comprehensive, long-ten energy policy, the Act provides incentives for traditional energy
production as well as ncwer, more efficient energy technologies. The first comprehensive
energy legislation in over a decade, the Act focuses on areas such as energy efficient building
construction, hybrid vehicles, clean coal, and other renewable and alternative energy sources.
The passage of the Energy Policy Act provides the Department with the opportunity to
aggressively implement key provisions of the legislation, while leading the effort to increase
national investment in altemalive fuels and clean encrgy technologies. The Department is
challenged with the task of helping to modernize the national energy infrastructure; expand the
Strategic Petroleum Reserve; invest in clean energy technologies such as hydropower, wind,
solar, and cellulosic biomass; and promote conservation in our homes and businesses.

Another factor related to this challenge centers on the Department's ability to ensurc a rcliable
energy supply, particularly to the military and emergency personnel, in the event of a natural
disaster or international crisis. An integral part of this mission, the Strategic Petroleum Reserve
is the largest stockpile of governmcnt-owned emergency crude oil in the world. Established in
the aftemlath of the 1973-74 oil embargo, the Reserve represents a powerful response option
should a disruption in commercial oil supplies threaten the United States. In the late summer of
2005, Hurricanes Katrina and Rita devastated the Gulf Coast region, threatening the assets and
re1 iabi lity of the Strategic Petroleum Resenre.



Page 11                                                                Management Challenges
In October 2005, the OIG conducted a review to identify the actions taken by thc Department in
response to Hurricanes Katrina and Rita and to assess whether these actions fulfilled the
Department's Emergency Support Function-12 (ESF-12) obligations for energy restoration, as
outlined in the Department of Homeland Security's National Response Plan. A resulting special
report disclosed that the Department effectively met its obligations by taking appropriate actions
to assist in the restoration of energy systems after Hurricanes Katrina and Rita. While the
Department's response was effective, we identified specific actions that could enhance future
                                                     ESF-12 missions. A recent follow-up review




                                                    emergency response assets in advance of
 A hc~r~gctlorkcd   (11                      (11 /hr Str(ilqgic. Pe/roli,rrm
                          f'hillips li~rt~lrtii~l
 /tcserrv                                           events such as natural disasters. Departmental
                                                    action to improve its inventory of emergency
response assets will further strengthen the progress it has already made in implementing our
earlier recommendations (The Dt'prrrtment of Energy '.Y Response to Hurricanes Katrina and
Ritu, IG-0707, October 2005; Follow-trp Review qf the Department of'Energy '.Y Response to
Hznt-ricanes Katrina unci Rita, IG-0733, July 2006).

The energy issues facing the world today did not develop overnight and, therefore, will require
both short-term and long-term solutions to address growing challenges. To combat challenges
reIated to the modernization of the national energy infrastructure, in FY 2006 the Department
announced the nomination of the first Assistant Secretary for Electricity Delivery and Energy
Reliability. This position supports the Department's objective to improve research and
development pertaining to electricity delivery infraslructure; lead national efforts to modernize
the electric grid; enhance security and reliability of the energy infrastructure; mitigate the impact
of, and facilitate recovery from, disruptions to the energy supply; and bring public awareness to
the developments that mill help ensure the reliable flow of energy to all Americans. Specifically,
the Of'ficeof Electricity Delivcry and Energy Reliability's strategic goal centers on the creation
of a more flexible, niore reliable, and higher capacity U.S. energy infrastructure. Given the
importance of stabilizing the country's energy supply and the challenges that this monumental
task creates, we have categorized Energy Supply as a significant management challenge facing
the Department.




Page 12                                                                        Management Challenges
The watch list consists of management issues that do not meet the threshold of major
management challenges, yet warrant continued attention by senior Department managers. Watch
list issues may include n~anagemcntchallenges identified in previous years for which the
Department has implemented corrective actions or has achieved significant positive outcomes.
In addition, the watch list may include emerging issues that require Department action. Last
year, our watch list addressed three areas: Energy Supply, Worker and Community Safety, and
Human Capital Management. This year, Energy Supply has risen to become a management
challenge. However, Financial Management and Reporting has been eliminated as a management
challenge and placed on the watch list as a function that needs to be monitored closely by the
Department.

Financial Management and Reporting,

During FY 2005, Financial Management and Reporting was classified as a management
challenge area as a result of problems associated with preparing accurate consolidated financial
statements and providing adequate supporting documentation. Issues arose rcgarding
accountability and monitoring obligations, reconciling payment information with the U.S.
Treasury, and reconciling transactions to integrated contractor trial balances and subsidiary
ledgers. These deficiencies were caused, in large part, by issues associated with the
reorganization of the Departmcnt's accounting operations and circumstances surrounding the
implementation of a new accounting system. The Department was unable to correct weaknesses
and could not provide a number of supporting documents required for audit. As a result, a
disclaimer of opinion was issued on the Department's FY 2005 consolidated financial
statements.

In FY 2006, the Department's Office of Chief Financial Officer made substantial progress in
correcting a number of financial controls and reporting weaknesses that lead to the disclaimer of
opinion on the FY 2005 consolidated financial statements. The Department's accounting and
reporting controls over obligations in FY 2006 were insufficient to prevent, detect, or correct
errors in a timely manner. A recent audit on the Department's FY 2006 consolidated balance
sheet resulted in a qualified opinion. Weaknesses were noted in the reporting of undelivered
orders, cyber security controls over network and information systems, the performance measure
reporting process. These weaknesses increased the risk that the Department's financial system
and reported performance information may not be reliable (The Depurlmenl c!fEnergy'.s Fiscal
Yerrr. -3006 Cotzsoli~luteclBrrlance Sheet, OAS-FS-07-02, November 2006).

Over the past year, thc Department has made strides to correct inefficiencies associated with the
new accounting system. As a result, Financial Management and Reporting has been downgraded



Page 13                                                                               Watch List
from a management challenge to the watch list. While the progress made by the Department in
this area has been positive, additional work remains necessary. Therefore, Financial
Management and Reporting remains a significant issue that requires the continued attention of
senior management in the future.

Worker and Cornmunitv Safetv

Given the numerous large-scale facilities and dangerous materials that make up the Department,
ensuring the safety of employees and the general public is of vital importance. Safety incidents
may potentially destabilize, delay, and disrupt the Department's critical activities, and have
intangible costs such as a negative public perception of the Department. Duc to the inherently
critical nature of these issues, the need for continued vigilance and improvement is essential. As
a result, we have retained the area of Worker and Community Safety on our watch list.

Although steps that the Department took to address worker and comn~unitysafety issues
prompted us to remove it from the management challenges list in FY 2003, our work continues
to identify safety issues that require the attention of senior management. For example, recent
reports in this area have focused on hazardous materials such as berylliun~and lead, which
present a health and safety risk to Department employees as well as the public. The Department
has a long history of beryllium use due to the element's broad application to many nuclear
weapon and reactor operations. Exposure to beryllium, however, can cause beryllium
sensitization or Chronic Beryllium Disease, which is an often debilitating, and sometimes fatal,
lung condition. As a result, in January 2000, the Department established a Chronic Beryllium
Disease Prevention Program, in large part to reduce worker exposure to beryllium at Department
facilities.

A key component of this program is the Beryllium-Associated Worker Registry, designed to
aggregate beryllium associated worker information, such as exposure and medical data from all
Department sites. A recent audit was initiated to determine whether the Department had
established, maintained, and effectively used the Registry to evaluate worker health effects
associated with beryllium exposure. We found that the Registry was established as planned, but
the Department had not maintained data completeness or accuracy, used the Registry to evaluate
health effects of beryllium exposure, or used the Registry to examine the prevalence of beryllium
disease, as initially envisioned. Additionally, the Department had not utilized the Registry to
evaluate the health effects of beryllium exposure or the prevalence of beryllium disease. The
results of our audit showed that implementation of the Registry program did not meet its own
expectations nor was it as helpful as it could have bcen in achieving the worker safety objectives
that were established by the Department. We offered several recommendations to assist efforts
in restructuring the Registry and, as a consequence, to advance the state of worker health and
safety within the Department as a whole (Inzplernerztatiorz of the Departtzient of Ettevgy's
Beryllium-Associatect Worker Registty, 16-0726, April 2006).

Over the past year, the Department took several steps to address previously identified as well as
emerging safety issues throughout the complex. The Office of Science has continued its efforts
to improve safety measures at a number of its laboratories, identifying benchmarks for safety
performance and incorporating performance measures into laboratory appraisal plans. In



Page 14                                                                              Watch List
addition, NNSA continued to improve upon its efforts within the Department's weapons
complex by addressing Defense Nuclear Facilities Safety Board and other Department of
Defense safety concerns. Given the inherent risks associated with the Department's many
nuclear, scientific, and cleanup projects, the area of Worker and Community Safety is a continual
process that requires invariable attention and improven~ent.

Human Capital Management

In the 200 1 President's Management Agenda, the Office of Management and Budget recognized
strategic management of human capital as one of the Government's "most glaring problems."
The Agenda specitically outlined concerns that the Department's staff lacked adequate project
and conlract management skills required to oversee large projects. Subsequently, the
Department undertook an effort to perform a critical skills gap analysis in order to review and
evaluate specific critical skill needs.

Adding to existing concerns in the area of Human Capital Management, the Department has
experienced a 27 percent reduction in the workforce since 1995. In addition, as of FY 2005,
approximately 53 percent of the Department's workforce is eligible for retirement within the
next five years. When combined with other factors such as a recent decline in the number of
Department employees and an array of incentives to lcave Federal service, the Department is
faced with a difficult challenge to ensure that its workforce has the knowledge and skills that are
necessary to fulfill the agency's various missions.

The Department has developed a framework to address these issues in the form of a
comprehensive human capital management strategy. As part of the Department's Human Capital
Management Strategic Plan, during FY 2006, the Department continued its efforts to reshape its
workforce through increased emphasis on perfomlance and accountability. As a result, the
Department con~pletedreorganizations in several program offices, including the Officc of
Science and the Office of Environmental Management, in order to address issues of performance
excellence and leadership continuity. While these are positive steps, the area of Human Capital
Management is an ongoing challenge that will require the attention of Department management
in the years to come.




Page 15                                                                               Watch List
                                                                                           Appendix 1



 Challenge Areas and Significant Issues Reported by Various Groups

        OlC Management                                               Significant Issues Identified
                                      GAO Challenge ~ r e a '
  I        Challenge                                                     by the ~ e ~ a r t m e n t '

                                     Cleanup of Radioactive &           Environmental Cleanup
      Environmental Cleanup
                                         Hazardous Waste                Nuclear Waste Disposal
                                        Security Threats and
      Safeguards and Security                                                   Security
                                             Problems

      Stockpile Stewardship         Nuclear Weapons Stockpile            Stockpile Stewardship
  1

                                                                       Oversight of Contractors
  1   Contract Management              Contract Management
                                                                              Management

       Project Management                                                 Project Management
                                                                                                        ~
             Cyber Security

                                      Leadership in Meeting
                                                                      Unclassified Cyber Security
                                                                                                        I
             Energy Supply
                                      Nation's Energy Needs

                                      Revitalize Infrastructure


         OIG Watch List
      Financial Management
          and Reporting
      Worker and Community
                                                                           Safety and Health
  I           Safety
             Human Capital
                                                                     Human Capital Management
              Management




' ~ c c o r d i nto~M ~ j o Marzugeirrerzt
                            r              Challerzges uizcl Program Risks, Department of Energy
(GAO-03- 100, January 2003).
h he Department's self-identified "Management            Challenges and Significant Issues" according to
I1.S. Depclrtrrteizt c!f'Erler,qy Performance c c r d Accourztubility Report, FY 2006 (November 2006).


P a g e 16             Challenge Areas a n d Significant Issues Reported by Various Groups
                                                                                              Appendix 2



                  Relevant Reports Issued in Fiscal Year 2006

Safeguards and Security

      Inspection Report on Concerns with Security Barric~rsat tlle Y-12 Ncltiorzcll S e c ~ ~ r i t y
      Cortlplex (DOEJIG-074 1 , September 26, 2006).
      Inspection Report on De.stridctiotz of Cla.s.siji'ed Hurd Drivo.~ut Sclizdicl Neltionc11
      Luhorcltory-Norv Mexico (IG-0735, August 3 , 2006).
      Inspection Report on lnterncll Control.sfi)r Exc.o.ssitr,q cltrd Silrplzl.siizg Unclassijiecl
      Computers at Los Alrlttios Ncltiorzal Laboratory (16-0734, July 26, 2006).
      Inspection Report on Tlio Hlrrnrrn Reliubility Progrunz ut Lci~vrerzceLivernlore Nutionell
      Laboratory (IG-0732, June 30, 2006).
      Inspection Report on Review of'tlle Protective Force Radio Coninlrrtiic.ation Systerrl at
      Sclnclicl Ncltiorlcll Lahorrltory-Nerv Mexico ( U ) (IG-073 1 , June 27, 2006).
      Audit Report on Tlze Departtnetzt'.s Managenlent c!f'Norz-NuclearHigh Explo.sives (IG-
      0730, June 26,2006).
      Inspection Report on Baclge Retrieved unel Security Clec~mncx~         Tentzinc~tiotlut Sanclia
      Nr~tiot~r~I  Lrlhorutory- New Mexico (IG-0724, April 18, 2006).
      lnspection Report on Tlze Depc~rtnlentoj'Energy'.s Review c!f'Export Licetzse Applicatiot1.s
      fi)r Clzirzcr (16-0723, April 5, 2006).
      lnspection Report on Internell Contro1.s Over Sensitive Property in tlze Oflice of
      Itrtrlligenc~t~ (16-0722, March 13, 2006).
      Audit Report on Nucleur Detection De1ice.s (IG-0720, February 28, 2006).
      Inspection Report on Elec.tronic. Rrcorditzg c?ff'Telepllorzeand Radio Conversutions by Los
      Alurno~Nc~tioizulLuhorrrtory Protective Force Mc~tzugenlent(IG-07 17, January 24, 2006).
      Inspection Report on Security Cleurclnce Ternlirzatiorz.~rlrlrl Br~rlgeRetricvc~lut tlle
      Luwrence Liverrtiore Nrrtionc~lLaboreltory (IG-07 16, January 19, 2006).
      Inspection Report on Acr/ui.sition of'Protective Force Weuporzs by Sundia Nationul
      Lubomtory, New Me.[-ic.o(IG-07 15, January 12, 2006).
      Special Report on Tlze Nutiotzul Nllcleclr Security Adtrlirzi.strcltiorl'.s Iri~plertletztutiotzof'tlze
      2003 De,sigi~Bclsis 7'llreat (IG-0705, October 7, 2005).

Environmental Cleanup

      Audit Report on Well Deconlnzissioning Activities ut tlze Hunjorcl Site (IG-0670,
      January 3,2005).
      Audit Report on Follow-up oil tlze Manc~genrentof Plutotziunl-239 Seuled Sources
      Recovery Activitie.~(OAS-M-06-09, September 12, 2006).
      Audit Report on Tlle Oflice of Civiliurz Rudioactive Wrrste Me~ncr~en~e~zt'.~
                                                                                 Corrective
      Action Progrc~nl(16-0736, August 16, 2006).
      Audit Report on Mclnclgernent Controls over Cesiunl und Strontiunl Capsule Disposition
      ut tlze fIunfhrd Site (OAS-M-06-06, August 4, 2006).




Page 17                                             Relevant Reports Issued in Fiscal Year 2006
                                                                                                  Appendix 2


      Audil Report on Molragelnent of'Sperlt Nlrcleclr Fuel (lt tlze S(lvunnull River Site. (IG-
      0727, May 12,2006).
      Audit Report on Murzugelnent Co1ztrol.s over Asso.ssilzg Nutur~llResource Drrnzr~gerlt
      Roc.ky Flcrts (OAS-M-06-02, November 30, 2005).
      Aud~tReport on M~ln(lgerrrentContrc11.sover tlze Hralfbrd Site Trun.surunic Mixed Tunk
      Wrl.st~(OAS-0-06-0 I , November 30, 2005).
      A L I Report
             ~ I ~ on Acceleruted Tunk Wuste Retrievul Activitic~sclt tlre Ncrnfi)rd Site (IG-
      0706, October 17, 2006).

Stockpile Stewardship

      Audit Report on Tllc. Nr~tio~zr~l                                B61 Spin Roc~ketMotor
                                    Nrrc-leur Security Adr?li~ziLstr~~tio~zfLs
      Project (IG-0740, September 26, 2006).
      Audil Report on W76 Lift Extelzsion Project (IG-0729, May 25, 2006).

Contract Management

      Audit Report on Performance-Bused Contrrrct 1ncentive.s rrt tlze Flunford Site (IG-0739,
      September 20, 2006).
      Audit Report on Murzugenzelzt Controls over Srrlull Bu.sirzes.s 0pporturritie.s ut Lclwrerzce
                                 L l~ i h o r ~ ~ t o(OAS-M-06-08,
      1,iverrrlore N u t i o n ~ ~                    ry                 August 24, 2006).
      Audit Report on M L I I Z L ~ ~ C          C011tro1.s
                                                     ~ I I I C over
                                                               V I ~ Perfornzunce Fees ill thc) Idrrlzo N~rtion~ll
      Luhorcltor-y Colltr~lct(OAS-M-06-07, August 24, 2006).
      Audit Report on Infbrrnrrtiorl 7'eclznology Support Sewices ut tlzc) Departrrrerzt c?f'Energyrs
      Oporuting C o n t r ~ ~ c t o(IG-0725,
                                        r,~            April 19, 2006).
      Inspections Report on Protective Force Corztr~lctsut tlze Oak Ridge Resew~ltion(IG-
      07 19, February 2, 2006).
      Audit Report on Den~olitionund Replucenlent c!f'Hur~forcl'.sRadiologicul C~llihrutiolz
      Luhorrrtory (IG-07 1 1, December 8, 2006).
      Audit Report on Mclrzcrgenzerzt of Futility Contr~lctorsA.s.siglleci to tlze Wushington, D.C.
      Areu (IG-07 10, November 2 1, 2005).

Pro iect Management

      Audit Report on Tlze Dep~lrtnzcnt'sUtilizcrtio~rof Fleet Velzicles (IG-0728, May 17,
      2006).
      Audit Report on k-ollow-up Alrriit Rc~porto~rtho Depurtnzent of Energyr.vPc~rf:fi,rrrrurzce
                                                                                               of'
         Mi~lnlishurgClosllre Project (IG-0721, March 14, 2006).
      flr~
      Aud~tsReport on Murzugement c?ftlze Depr~rtrnerzt~.~ Desktop Conzputer Sojlihiure
      Enterprise License Agreement (IG-07 18, January 1, 2006).
      Audit Report on Stcrtus of tlre Mixed Oxide Fuel Fuhricution Fucility (IG-0713,
      December 2 1,2005).
      Audit Report on Munclgt~r~rt~nt ofthe Depurtrnent's Isotope Progr~lnr(IG-0709, November
      17,2005).



Page 18                                               Relevant Reports Issued in Fiscal Year 2006
                                                                                        Appendix 2


Cyber Security

      Audit Report on Mallagernent Corztro1.s over the F'tlclercll Energy Regzrlritorv
      Cor~rr~li.v.sio~l'.s
                      IJr~cla.s.si/ieclCyher Securitv Progrcrrn-2006 (OAS-M-06- 10, September 25,
      2006).
      Audit Repor-t on The Departn~er~t'.~    U~~clrr.s.si/ied
                                                            Cyher Security Progrclnz-2006 (IG-0738,
      Scptcmbcr 18,2006).
      Evaluation Report on Tile F'eclerul Energy Regulatory Corrlnlis.siorll.sIJ~zcla.s.sifiedCyhor
      Security Progrclrrz - 2005 (IG-0704, October 6, 2005).
      Mcrnorandum to the Secretary on Sllrirnlary: Special Irzyrriry Report Rolclting to tile
      Dopartrrlc~rltc?f'E~zerCqy1.s
                                  Resporzse to el Conlpronzise of Per.sorznel Dcltrl (Special Inquiry
      Memorandum, July 19, 2006).

Energy Supply

      Special Report on E'ollo\rq-Ilp Review of'tlze Dt)pcrrtnze~ztofE~zergyr,s
                                                                             Re.spon.se to
      Hurricanes Kcltrirzrr lr~lllRite1 (IG-0733, July 12, 2006).
      Special Report on The Depurtnletzt o$Etzergyfs Respo~zseto Ilrrrricurle.~Kcltrinu ufzcl Ritu
      (IG-0707, November 9,2005).

Financial Manapenlent and Reporting

      Memorandum on Report on the Depurtnzefzt of Erlergy's Fisccll Yeur 2005 Consolidutecl
      Fin~azcialStcltenlet1t.s (OAS-FS-060 1, November 14, 2005).

Worker and Community Safety

      Aud~tReport on Audit Report Berjlliunl Corztrols at Ouk Riclge Nrrtionc~lLc~horutory(IG-
      0737, September 6,2006).
      Inspect~onReport on Concerns Regurclirzg Ltlclcl Co~ztarni~zation    rrnd Rudiologicul
      Co~ztrolsrrt the Nt~vudclTest Site (INS-0-06-02, May 17, 2006).
      Audit Report on Irty>lerrze~ztatiolz
                                         of the Depurtnlefzt c!f'Eilergyf.sBerylliurfz-A.s.socir~tc~cl
      Worker Registry (IG-0726, Apri 1 20, 2006).




Page 19                                          Relevant Reports Issued in Fiscal Year 2006
                                                                     IG Report No. DOEIIG-0748

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:
1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?
2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?
5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                               Office of Inspector General (IG- 1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:


                U.S. Department of Energy Office of Inspector General Home Page



                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.
